Office of Inspector General                                               March 29, 1999


Mr. Larry W. Albert
Partner
Arthur Andersen LLP
1666 K Street, NW
Washington, DC 20006-2873

Re: Final Report on Quality Control Review of Arthur Andersen LLP Audit of the
    National Aeronautics and Space Administration Financial Statements
    for Fiscal Year Ended September 30, 1998
    Assignment Number A-HA-98-035
    Report Number IG-99-018


Dear Mr. Albert:

We are issuing the subject final report pursuant to our responsibilities under the Chief
Financial Officers Act of 1990, as amended, Inspector General Act of 1978, as amended,
and the Office of Management and Budget Bulletin 98-08, "Audit Requirements for Federal
Financial Statements," August 24, 1998. Please refer to the Results in Brief section for the
overall quality control review results. We provided Arthur Andersen LLP an opportunity
for written comments and none were provided.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock,
Program Director, Environmental and Financial Management Audits, Office of Inspector
General, at (216) 433-8960, or Ms. Van Tran, Auditor-in-Charge, at (202) 358-0466. We
appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix C.

Sincerely,

[Original signed by]

Russell A. Rau
Assistant Inspector General for Auditing

Enclosure
                                                       IG-99-018



QUALITY                        QUALITY CONTROL REVIEW OF
                            ARTHUR ANDERSEN LLP AUDIT OF THE
CONTROL                      NATIONAL AERONAUTICS AND SPACE
REVIEW                          ADMINISTRATION FINANCIAL
REPORT                      STATEMENTS FOR FISCAL YEAR ENDED
                                   SEPTEMBER 30, 1998

                                      MARCH 29, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        NASA Headquarters
        Code W, Room 8V69
        300 E Street, SW
        Washington, DC 20546-1000

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form, or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.


_________________________________________________________________________________________________


Acronyms

AICPA          American Institute of Certified Public Accountants
FY             Fiscal Year
OMB            Office of Management and Budget
SFFAS          Statement of Federal Financial Accounting Standards
                            NASA Office of Inspector General
IG-99-018                                                                        March 29, 1999
 A-HA-98-035

                  ARTHUR ANDERSEN LLP AUDIT OF THE
            NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
     FINANCIAL STATEMENTS FOR FISCAL YEAR ENDED SEPTEMBER 30, 1998

Introduction

The NASA Office of Inspector General performed a quality control review of the Arthur
Andersen LLP (Arthur Andersen) audit of the NASA Fiscal Year (FY) 1998 Financial
Statements. Our quality control review and reporting on the results thereof are required by the
Office of Management and Budget (OMB) Bulletin 98-08, as amended, “Audit Requirements for
Federal Financial Statements,” August 24, 1998. The review objective was to determine whether
Arthur Andersen conducted its audit in accordance with government auditing standards and
provisions of OMB Bulletin 98-08.

Results in Brief

Arthur Andersen conducted the audit in accordance with government auditing standards and
provisions of OMB Bulletin 98-08. Specifically, Arthur Andersen planned, executed, and
reported the results of its audit according to applicable standards, and issued the reports in a
timely manner. A summary of Arthur Andersen’s audit results is in Appendix A.

Background

The Chief Financial Officers Act of 1990 requires NASA to produce financial statements and the
Office of Inspector General to either audit or provide for an independent external auditor to audit
the statements. Starting with FY 1996, we contracted with Arthur Andersen, an independent
certified public accounting firm, to audit NASA’s financial statements. Our responsibilities for
audits conducted under contract are identified in the Inspector General Act of 1978, as amended,
the Chief Financial Officers Act of 1990, as amended, and in OMB Bulletin 98-08. Generally, our
responsibility is to ensure that the audit conforms to generally accepted government auditing
standards and applicable statutory and regulatory requirements. Further, paragraph 10 of OMB
Bulletin 98-08 requires the Inspector General to:

       •   ensure that audits are performed and audit reports completed in a timely manner and in
           accordance with the Bulletin requirements,
       •   provide technical advice and a liaison to Agency officials and independent external
           auditors,
       •   perform quality control reviews and provide the results to interested organizations,
           and
       •   monitor and report on management's progress in resolving audit findings identified by
           independent external auditors.
Scope and Methodology

In performing the quality control review, we used an internal work program that incorporates the
Federal financial management and audit requirements, as well as government auditing standards.
The government auditing standards also incorporate, by reference, the American Institute of
Certified Public Accountants (AICPA) standards of fieldwork and reporting. Based on those
requirements, we developed and organized the work program according to the general, fieldwork,
and reporting audit standards. The work program also included steps covering our oversight
requirements.

To satisfy the review objective and to fulfill our oversight responsibilities, we:

       •   reviewed Arthur Andersen’s approach and planning of the audit,
       •   monitored the progress of the audit at key points,
       •   examined its working papers and audit reports, and
       •   performed other procedures as necessary.

We coordinated with the OMB, General Accounting Office, and other Federal entities, as needed,
during the course of the audit performed by Arthur Andersen and provided liaison to Agency
officials to facilitate audit accomplishments.

Arthur Andersen issued its reports on February 3, 1999. We performed our quality control
review from May 1998 to March 1999.

Review Results

We worked closely with the external auditors and Agency officials to ensure the audit was done in
a timely manner and according to applicable standards. Our involvement extended from the initial
audit planning, to execution, and to completion. We held periodic meetings to discuss status and
key issues such as implementation of new accounting standards, reviewed Arthur Andersen’s
working papers as the audit progressed, and coordinated responses to requests or mandated
requirements.

We reviewed and took no exception to the audit work performed supporting the following
reports:

       Report of Independent Public Accountants on Financial Statements. Arthur
       Andersen is required to obtain reasonable assurance about whether the financial
       statements are free of material misstatement. NASA’s financial statements include:

               •   Statement of Financial Position
               •   Statement of Net Cost



                                                   2
                  •   Statement of Changes in Net Position
                  •   Statement of Budgetary Resources
                  •   Statement of Financing

         We reviewed the audit program and the testing of evidence to determine whether testing
         was sufficient, based on assessment of control risk, to warrant the conclusion reached and
         whether the working papers supported the conclusion. We also evaluated the extent of
         audit coverage on NASA implementation of the Statement of Federal Financial
         Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Standards”; SFFAS
         No. 6, “Accounting for Property, Plant, and Equipment”; SFFAS No. 7, “Accounting for
         Revenue and Other Financing Sources”; and SFFAS No. 8, “Supplementary Stewardship
         Reporting.”

         Report of Independent Public Accountants on Internal Control. Arthur Andersen is
         required to obtain an understanding of the components1 of internal controls that is
         sufficient to plan the audit and to assess control risk for the assertions2 embodied in the
         financial statements. Arthur Andersen is also required to obtain an understanding of the
         components of internal control relating to the existence and completeness assertions
         relevant to the performance measures. We reviewed the audit programs for the
         appropriate procedures, the working paper documentation including the control risk
         assessment,3 and the controls testing performed. We also reviewed the working papers
         related to electronic data processing and performance measures for adequate
         documentation. Finally, we evaluated the adequacy of the auditors’ effort in following up
         on findings and recommendations in the FY 1997 Management Letter.4 The status of
         management’s progress in resolving last year’s findings is in Appendix B. As required by
         government auditing standards, section 4.7, Arthur Andersen will follow up on all
         reportable conditions and findings and recommendations in the FY 1998 Management
         Letter.

         Report of Independent Public Accountants on Compliance with Laws and
         Regulations. Arthur Andersen is required to determine whether NASA has complied
         with laws and regulations that could have a direct and material effect in determining the
         financial statement amounts. Arthur Andersen is also required to assess whether NASA’s
         financial management systems substantially comply with the Federal Financial



1
  The five components of internal control are control environment, risk assessment, control activities, information
and communication, and monitoring.
2
  The five assertions are existence or occurrence, completeness, rights and obligations, valuation or allocation, and
presentation and disclosure.
3
  According to AICPA Codification of Statements on Auditing Standards, Section 319, Consideration of Internal
Control in a Financial Statement, auditors are required to document the basis for concluding that control risk is
below the maximum level.
4
  A management letter describes conditions that the auditors do not include in the audit report but consider
necessary to communicate to management.
                                                          3
         Management Improvement Act of 1996. We reviewed the audit programs for the
         appropriate procedures, the working paper documentation including the fraud risk
         assessment,5 and the compliance testing performed.

         Report of Independent Public Accountants on the Application of Agreed-Upon
         Procedures. Arthur Andersen is required to perform payroll agreed-upon procedures
         related to the retirement, health, and life insurance withholdings/contributions and
         employee headcount data. The procedures were performed on behalf of the Office of
         Personnel Management. The auditors must apply the procedures for each Agency Payroll
         Office that services 30,000 or more employees per year. We reviewed the working papers
         to determine whether the procedures were completed as specified in OMB Bulletin 98-08,
         Appendix H, and whether associated findings, if any, were supported.

As part of our oversight responsibilities, we also performed the following procedures:

         •   Transmitted the required letters/report to external agencies as follows:
             − NASA Interim and Updated Legal Representation Letters to OMB, Department of
                the Treasury (Treasury), and the General Accounting Office on January 21, and
                February 23, 1999.
             − NASA Management Representation Letter to OMB, Treasury, and the General
                Accounting Office on February 23, 1999.
             − Arthur Andersen’s report on its application of agreed-upon procedures to the
                Office of Personnel Management’s Inspector General, Chief Financial Officer, and
                Associate Director for Retirement and Insurance on February 23, 1999.

         •   Completed the Federal Agencies’ Centralized Trial-Balance System data verification
             and provided results to Treasury and the General Accounting Office on March 3,
             1999. The verification was to ensure agreement between amounts reported in the
             Agency’s financial statements and those reported to Treasury. We found no
             differences in amounts.

At the Agency’s request, we reviewed the draft FY 1998 Accountability Report6 and provided
comments on January 5, and February 5, 1999. Our comments involved consistency in reporting
and compliance with mandated requirements, such as the Year 2000 issues disclosure.




5
  AICPA Codification of Statements on Auditing Standards, Section 316, Fraud in a Financial Statement Audit,
states that auditors are required to specifically assess the risk of material misstatement of the financial statements
due to fraud and to document in the working papers evidence of its assessment.
6
  The annual Accountability Report links together statutorily required reports into a single document. Examples
include reports required by the Chief Financial Officers Act, the Government Performance and Results Act, the
Federal Managers’ Financial Integrity Act, the Prompt Payment Act, and the Inspector General Act Amendments.
                                                          4
          APPENDIX A. SUMMARY OF ARTHUR ANDERSEN’S AUDIT RESULTS

Report of Independent Public Accountants on Financial Statements

Arthur Andersen rendered an unqualified opinion on NASA’s Statement of Financial Position as
of September 30, 1998. The Statements of Net Cost, Changes in Net Position, Budgetary
Resources, and Financing for the year ended September 30, 1998, also received an unqualified
opinion.

Report of Independent Public Accountants on Internal Control

Arthur Andersen tested NASA’s controls over financial reporting and found no material
weaknesses.7 However, the auditors noted a reportable condition related to information
technology policies and procedures which require improvement to prevent unauthorized access to
NASA financial management systems. The reportable condition is a repeat deficiency from last
year’s audit. Other findings are described in the Management Letter (see footnote 4) and are
summarized below.

Report of Independent Public Accountants on Compliance with Laws and Regulations

Arthur Andersen tested NASA compliance with certain laws and regulations that could have a
direct and material effect in determining the financial statement amounts. The tests disclosed no
reportable noncompliance. Arthur Andersen also concluded that NASA’s financial management
systems substantially comply with the Federal Financial Management Improvement Act of 1996.

The full text of the above three reports are included the Agency’s FY 1998 Accountability Report
which can be viewed at http://www.nasa.gov.

Report of Independent Public Accountants on the Application of Agreed-Upon Procedures

Arthur Andersen performed the procedures as specified in Appendix H of OMB Bulletin 98-08
and found no differences or variances above the stated limit. Appendix H listed seven detailed
procedures relating to the Report of Withholdings and Contributions for Health, Benefits, Life
Insurance, and Retirement and to the Supplemental Semiannual Headcount Report. The
procedures generally entailed footing,8 tracing to source documents, recalculating amounts, and
reconciling reports.




7
  A material weakness is a reportable condition in which the design or operation of one or more of the internal
control structure elements does not reduce to a relatively low level the risk that errors or irregularities in amounts
that would be material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
8
  Footing is the sum of a column or row of figures.
                                                          5
Appendix A


FY 1998 Management Letter

In addition to the reportable condition involving information technology, Arthur Andersen made
14 additional observations related to three areas: (1) Financial Management and Accounting
Matters, (2) Financial Management Systems, and (3) Property Management. Overall, the
recommendations for areas one and three addressed the need to strengthen the financial reporting
process or procedures and to perform reconciliation in a timely manner. For the Financial
Management Systems area, the recommendations addressed the need to strengthen general
security controls, to maintain complete and accurate documentation of security policies and
procedures, to improve security-related practices and disaster recovery capabilities, and to
complete Year 2000 remediation initiatives. In following up on the FY 1997 Management Letter
recommendations, Arthur Andersen found that of 23 recommendations that warranted action,
further activity was required on 19 recommendations. In particular, two recommendations were
not implemented pertaining to developing and tracking financial management performance
measures and reclassification of expired grant advances to accounts receivable (see Appendix B).




                                               6
           APPENDIX B. STATUS OF PRIOR YEAR MANAGEMENT LETTER
                            RECOMMENDATIONS

Fiscal Year 1997                 Findings Not Repeated In 1998   Findings Repeated in 1998
Recommendations                  Management Letter               Management Letter
                                 Implemented    In Process       Partially       Not
                                                                 Implemented     Implemented
1. Strengthen financial
Reporting Process to
Effectively Communicate and
Monitor New and Changing
Policies
    a. Proper accounting for                                          X
prior-period adjustments
    b. Recording of                                                   X
transactions in the proper
period
    c. Prompt liquidation of         X
non-governmental deposit
liabilities
    d. Uniform implementation                                         X
of NASA policy for
transferring work in progress
to completed property
    e. Inclusion of contractor                                        X
fees in the recorded value of
contractor-held property
    f. Periodic analysis of                                           X
significant account balances
fluctuations
    g. Reclassification of                                                            X
expired grant advances to
accounts receivable
    h. Endorsement of checks                          X
immediately upon receipt
2. Improve Logical Access                                             X
Controls over Security of
Financial Management
Systems
3. Establish Process to Obtain                        X
All Audit Reports of Grant
Recipients
4. Continue to Strengthen                             X
Performance Measurement
Process


                                                  7
Appendix B

Fiscal Year 1997                  Findings Not Repeated in 1998   Findings Repeated in 1998
Recommendations                   Management Letter               Management Letter
                                  Implemented    In Process       Partially       Not
                                                                  Implemented     Implemented
5. Develop and Track Financial                                                         X
Management Performance
Measures
6. Ensure Timely Submission of        N/A*
NASA's Prompt Payment Report
7. Strengthen Process for             X
Accruing Legal Contingencies
8. Reconcile Advances Detail          X
with Control Account at
Headquarters Accounting
Division
9. Clear Suspense Accounts on a       X
Timely Basis
10. Develop Formal, Written                                           X
Documentation of Financial
Management System Security
Policies and Procedures
11. Enhance Processes to                                              X
Manage Financial Management
System General Security
Controls
12. Strengthen Financial                                              X
Management System Security -
Related Practices
13. Strengthen Financial                                              X
Management System Disaster
Recovery Documentation and
Capabilities
14. Complete Year 2000                                                X
Application and Operating
System Conversion Initiative
15. Review Government                                                 X
Property Control System
Analyses for Possible Financial
Statement Impact
16. Reconcile the General                                             X
Ledger to Property Records on a
Timely Basis
17. Improve Monitoring controls                                       X
over Recording of Property
Transactions
*
 The requirement for the submission of NASA's Prompt Payment Report was eliminated and thus not tested
by Arthur Andersen.



                                                   8
                       APPENDIX C. REPORT DISTRIBUTION


National Aeronautics and Space Administration (NASA) Headquarters

Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
John H. Glenn Research Center at Lewis Field
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center




                                               9
MAJOR CONTRIBUTORS TO THIS REPORT

Chester A. Sipsock, Program Director, Environmental and Financial Management Audits
Van Tran, Auditor-in-Charge
Vera J. Garrant, Acting Report Process Manager
